No. 19-847
IN

rnn

supreme @ourt of tle @niteD Stutes
JouaruaN RprsuAN,
Petitioner,
V.

Assocrltpl

Facur,TIES oF

rnp UNwERSITv or MarNs,

ET AL.,

Respondents.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the First Circuit

CERTIFICATE OF SERVICE
I, Lauren Noto, of lawful age, upon my oath state that I did, on the 29th day of June,
2020, serve an electronic copy of the BRIEF IN OPPOSITION FOR RESPONDENT
ASSOCIATED FACULTIES OF THE UNIVERSITIES OF MAINE in the aboveentitled case to all parties required to be served, who consented to electronic service
only:

Andrew Michael Grossman
Baker & Hostetler LLP
1050 Connecticut Avenue, N.W.
Suite 1100
Washington, DC 20036
agrossman@b akerlaw. com

Attorneys for Petitioner

Linda Duffy McGilI
Bernstein, Shur, Sawyer and Nelson, PA
100 Middle Street
PO Box 9729

Portland, ME 04104
lmc gill@bernsteinshur. com
Attorneys for Respondents Uniuersity of

Maine

at Machias & the Board of
of the Uniuersity of Maine

Trustees
System

1

Susan P. Herman
Office of the Attorney General
6 State House Station
Augusta, ME 04333
Susan.herman@maine. gov

Attorney for Respondent State of Maine

I certify under penalty of perjury that the foregoing is true and correct

uren Noto

2

